No. _________________
IN THE SUPREME COURT OF THE UNITED STATES
DESHUN THOMAS,
Petitioner,
VS.

BOBBY LUMPKIN, DIRECTOR, TEXAS DEPARTMENT OF CRIMINAL JUSTICE,
CORRECTIONAL INSTITUTIONS DIVISION,
Respondent.
On Petition for Writ of Certiorari
to the United States Court of Appeals for the Fifth Circuit
PROOF OF SERVICE
I certify that, on March 18, 2021, I am electronically filing the Motion
for Leave to Proceed In Forma Pauperis and the Petition for Writ of Certiorari
with Appendices. I further certify that, on this date, as required by Supreme
Court Rule 29, I am serving these documents on the parties to the above
proceeding, and on every other person required to be served, by depositing
an envelope containing each document in the United States mail properly
addressed to each person and with first-class postage prepaid. I further
certify that I am mailing one paper copy of each document to the Supreme
Court of the United States as required by the Supreme Court’s April 15,
2020, Order (providing that “a single paper copy of the document” may be
filed).
The names and addresses of those served are as follows:

Hon. Scott Harris, Clerk
SUPREME COURT OF THE UNITED STATES
1 First Street, N.E.
Washington, D.C. 20543
Hon. Ken Paxton, Attorney General
Susan Frances San Miguel, Assistant Attorney General
OFFICE OF THE ATTORNEY GENERAL OF TEXAS
Post Office Box 12548-2548 Austin, Texas 78711-2548
512.936.1400 telephone | 512.936.1280 fax
susan.sanmiguel@oag.texas.gov
Submitted on March 18, 2021.
s/Charles W. Prueter
Charles W. Prueter
Counsel of Record
WALLER LANSDEN DORTCH & DAVIS, LLP
1901 Sixth Avenue North, Suite 1400
Birmingham, Alabama 35203
205.226.5735 office | 205.214.8787 fax
charles.prueter@wallerlaw.com

2

